           STATUTORY AND ADMINISTRATIVE
                 RESPONSIBILITIES

The Inspector General Act of 1978 (Public Law 95-452), as amended, sets forth specific re-
quirements for semiannual reports to be made to the Chairman for transmittal to the Con-
gress. A selection of other statutory and administrative reporting and enforcement respon-
sibilities and authorities of the Office of Inspector General (OIG) are listed below:

                    OIG AUDIT AND MANAGEMENT REVIEW
Public Law (P.L.) 97-255    Federal Managers’ Financial Integrity Act of 1982
P.L.          1041-34       Debt Collection Improvement Act of 1996
P.L.          101-576       Chief Financial Officers Act of 1990
P.L.          102-486       Energy Policy Act of 1992
P.L.          103-62        Government Performance and Results Act of 1993
P.L.          103-355       Federal Acquisition Streamlining Act of 1994
P.L.          103-356       Government Management Reform Act of 1994
P.L.          104-106       Information Technology Management Reform Act of 1996
P.L.          104-208       Federal Financial Management Improvement Act of 1996
General Accounting Office Government Auditing Standards


            CRIMINAL AND CIVIL INVESTIGATIVE AUTHORITIES
Title 5                     United States Code, section 552a
Title 18                    United States Code, sections on crime and criminal
                            procedures as they pertain to OIG’s oversight of departmental
                            programs and employee misconduct
Title 31                    United States Code, section 3729 et seq., the False Claims Act
                                                                     ig
                                                April 2002 SemiAnnual Report




                                           TABLE OF CONTENTS

                                                                                                                                             Page

COMMISSION’S TOP MANAGEMENT CHALLENGES . . . . . . . . . . . . . . . . . . . . . .                                                                  1
 Information Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               1
 Human Capital Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           2
 Performance Based Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                               3
 Redesigning Business Processes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         4
 Information Resources Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                 5

COMMISSION’S ORGANIZATIONAL STRUCTURE . . . . . . . . . . . . . . . . . . . . . . . . .                                                             6

COMMISSION PROFILE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          7

THE OFFICE OF INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                 9

AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   10
 Audit Report List . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           10
 Summary of Significant Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         10
   Planning Process for the Commission’s Research Program
     OIG-AR-01-02 (March 29, 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             10

AUDIT FOLLOW-UP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    13
 Evaluation of the USITC’s Information Security
   Program, OIG-AR-02-01 (September10, 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                         13
 Evaluation of USITC’s Records Management, OIG-AR-05-00
   (March 7, 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             13
 Evaluation of the Commission’s Implementation of E-FOIA,
   OIG AR-01-01(March 20, 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            14
 Review of the Commission’s Information Resources
   Management Function, OIG-AR-01-00 (September 29, 2000) . . . . . . . . . . . . . . . . .                                                        14

INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
  Inspection Report List . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
  Assessment of the Commission’s Family-Friendly Program
    OIG--IR-06-01 (March 27, 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Summary of Investigative Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


                                                                          i
                                                                 ig
                                              April 2002 SemiAnnual Report




                           TABLE OF CONTENTS-Continued

                                                                                                                                      Page

OTHER ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            18
 Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      18
 Management Assistance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              18
 General Accounting Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            19
 Liaison Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   20
 Legislative Liaison Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             20

REPORTING REQUIREMENTS INDEX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

Table 1 AUDIT REPORTS WITH QUESTIONED COSTS . . . . . . . . . . . . . . . . . . . . . 22

Table 2 AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS
 BE PUT TO BETTER USE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24




                                                                      ii
                                         ig
                             April 2002 SemiAnnual Report




                     COMMISSION’S TOP
                  MANAGEMENT CHALLENGES
The “Top Management Challenges” facing the International Trade Commission
(Commission/ITC) as identified by the Office of Inspector General (OIG)—as well as recent
OIG activities relating to each challenge—are discussed below. Through audits, inspec-
tions and other assistance, the OIG has been helping the Commission to address these
challenges.



                              Information Security
The information that the Commission processes and generates is a valuable asset that
management must protect from loss, misuse, unauthorized access or modification. The
challenge the Commission faces in providing such protection is how to apply adequate
resources to ensure sufficient information security. Although much of this information is
in electronic form, it resides in a variety of hardware platforms and software applications,
accessible through various communications links. At present, the Commission’s data could
be susceptible both to physical and electronic threats.

Congress enacted the Government Information Security Reform Act (GISRA) in 2000 to
help federal organizations protect government information resources. GISRA provides that
agencies centralize information security management under their Chief Information
Officers (CIO). The need for centralized information security management results, in part,
from the highly interconnected nature of modern information systems. While in the process
of establishing its own CIO office, the Commission has appointed both an acting CIO and
an Information Security Officer to coordinate the information security program.

Another important provision of GISRA is that agency Inspectors General conduct an
annual independent evaluation of their agency’s information security program and
practices. This evaluation is to include appropriate tests of information security controls
and an assessment of agency compliance with GISRA requirements and related
information security policies, procedures, standards and guidelines. Accordingly, we
conducted a comprehensive audit of the Commission’s information security program,
summarized on page 13. We plan to further evaluate selected aspects of the Commission’s
information security program in fiscal year (FY) 2002. In addition, the OIG has met weekly
with the acting CIO and the Information Security Officer to monitor progress
implementing planned information security improvements.

                                            1
                                         ig
                             April 2002 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued


                                  Human Capital
Human capital is the Commission’s largest resource, with salaries and personnel benefits
representing 71 percent of the budget. The Commission maintains an expert staff of
professional international trade and nomenclature analysts, investigators, attorneys,
economists, computer specialists and administrative support personnel. All employees are
located at 500 E Street, SW, Washington, DC 20436. At the end of FY 2002, the
Commission employed a total of 368 permanent employees.
The Commission faces a continuing challenge in matching its workforce to its workload.
The Commission’s unique mission and functions as well as external factors make workload
forecasting difficult. For example, by the beginning of FY 2002, the Commission had
completed three of the busiest years in its history, primarily due to the need to conduct
sunset reviews on all outstanding Antidumping and Countervailing Duty orders. As
mandated by the Uruguay Round Agreements Act (URAA), the Commission was required
to review 309 orders, some dating from the 1960s, eventually consolidated on the basis of
product coverage into 105 grouped investigations. The URAA provided a 3--year transition
period to conduct these initial reviews, known as transition reviews, beginning July 1998
and ending July 2001. During this 3--year transition period, the average annual number
of completed import injury investigations rose to 54 per year—a 157 percent increase over
the prior 3--year period (FY 1996--1998). The Commission managed the increased
transition workload through a combination of internal temporary reassignments and term
appointments but without additions to permanent staff.

Half of the transition orders remain in place and will have to be reviewed again beginning
in FY 2004. Now a permanent part of the Commission’s workload, there will be at least 5
to 10 groups of orders reviewed every year, in addition to new Antidumping and
Countervailing Duty filings. Similarly, the Commission has experienced a significant
increase in complaints under section 337 of the Tariff Act of 1930, Investigations of Unfair
Practices in Import Trade. The complaints require additional intellectual property-based
import investigations, most frequently involving allegations of patent or trademark
infringement.




                                            2
                                          ig
                             April 2002 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
Whether the Commission’s workload continues to increase or not, it faces a workforce
challenge common to most federal entities: retirement eligibility. We found that by 2005,
nearly one third of the Commission’s workforce—including half of its supervisors—will be
eligible for regular retirement. The Commission, possibly faced with losing its most
experienced employees, will be challenged to preserve workforce knowledge and skills.
If there is a positive aspect to the retirement eligibility dilemma, it is that the Commission
has a near term opportunity for management realignment. The Commission could
streamline management by not replacing some retiring supervisors. Since much of the
Commission’s investigative and research work is being done by multi-disciplinary teams
from various offices, these offices could be realigned from hierarchical to team structures.
Another possibility is to realign offices to better reflect the Commission’s five strategic
operations.
Following up on its earlier Inspection report, “Self–Assessment of the Commission’s
Human Capital,” the OIG completed an inspection finding that the Commission has made
good progress in implementing Family-Friendly Workplace programs (see page 15). Such
programs help the Commission remain competitive in hiring.


                     Performance Based Management
The Commission is committed to performance-based management as embodied in the
Government Performance and Results Act (GPRA). The challenge for the Commission has
been to go beyond performance–based management as an element of high level planning
to performance-based management as an actual day-to-day management culture that is
interwoven into all aspects of the Commission’s operations. This requires not only a clear,
understandable definition of the Commission’s strategic goals and objectives, but also their
translation into supporting goals and objectives for individual offices and individual
employees. Once this translation has occurred, there is a need for continuous measurement
and evaluation of performance at all levels to assess progress toward goal attainment and
to adjust allocation of resources as necessary.
The Commission has made progress in meeting this challenge. Beginning in FY 2000, the
Commission implemented a budget structure that allowed nearly all activity costs to be
allocated among its five strategic operations. This has enabled the Commission to readily
identify and control the resources allocated to the various strategic operations. Also, during
the recent audit of the Research Program, the Commission modified its time and
attendance management system by adding labor codes to capture time by certain projects,

                                             3
                                         ig
                             April 2002 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
and employees were directed to record their time accordingly. With this modification, data
can be extracted to go into a labor code database for management’s use. The Commission
can continue to improve management effectiveness through greater automation and
integration of its budget, procurement, asset management, and other financial
management processes.


                      Redesigning Business Processes
Like other federal entities, the Commission is challenged to redesign its business processes
to take advantage of modern information technology and management techniques. Many
of the Commission’s processes are still largely paper-centric. Redesigning these processes
to allow more automation and electronic processing can lead to significant improvements
in economy and efficiency. Proactive processes, designed to incorporate improved planning
methodology, can lead to a workforce that is both more productive and more responsive to
customer needs.
The Commission submitted its plan for implementing the Government Paperwork
Elimination Act to the Office of Management and Budget (OMB) at the end of FY 2000.
Based on a review of all significant transactions between the Commission and the public,
the plan set goals for providing options by the end of FY 2003 for those wishing to conduct
business with the Commission electronically. The plan may be accessed by Internet at
http://www.usitc.gov/webabout.htm.
Additionally, the Commission recently agreed to make improvements in its Research
Program as a result of an OIG audit. The knowledge and skills developed by the
Commission’s staff through the Research Program are used to support the Commission’s
other operations and provide immediate assistance to the Congress and the executive
branch on trade issues. While the Commission established a plan for the Research Program
that contained strategic goals, general strategies and critical success indicators, the OIG
audit found that improvements were needed to identify and prioritize future projects while
ensuring resources are effectively used. The OIG made three recommendations to
strengthen the Research Program and the actions listed by management met the
recommendations’ intent (see page 10).




                                            4
                                          ig
                             April 2002 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued


                   Information Resources Management
Rapidly evolving information technology, particularly in networking and telecommuni-
cations, presents the Commission with opportunities for modernizing its information and
management systems. Further automating the Commission’s business processes should
promote greater economy and efficiency while freeing human capital for more effective
planning, evaluation and research. Likewise, the application of modern web-based
information architectures can enhance the way the Commission interacts with its
customers and the public.
The Commission’s challenge is to coordinate within its offices and activities a shared vision
to constantly improve its business systems by applying modern information technology.
Such leadership can assure that information technology is just as applicable to customer
relations management as it is to back-office administrative processes, like accounting, to
which it has traditionally been applied.
The Congress has recognized the priority of information technology in government through
legislation such as the Clinger--Cohen Act of 1996. In response to an OIG audit
recommendation, the Commission has taken steps to appoint a Chief Information Officer
(CIO) including appointment of an acting CIO.




                                             5
                                                                                       ig
                                                                 April 2002 SemiAnnual Report




                                      COMMISSION’S ORGANIZATIONAL STRUCTURE

                                                  U.S. International Trade Commission




                                                                                     Chairman
                                                                               COMMISSION




    Office of the                                                                                Administration        Office of the              Office of        Office of
                           Operations                                      Office of
   Administrative                                   Office of the                                   Office of            General                 Inspector          Equal
                           Office of the                                   External
    Law Judges                                       Secretary                                    the Director          Counsel                   General         Employment
                             Director                                      Relations                                                                              Opportunity
                                                                         Trade Remedy
                                                                         Assistance Office

                                                                                                                                            Employee
                                                                                                                                           Development



                          Office of                                    Office of                    Office of                                                  Office of
   Office of                                       Office of                                                             Office of            Office of
                         Industries                                  Information                    Finance                                                    Facilities
  Economics                                     Investigations                                                          Personnel            Publishing
                                                                       Services                                                                               Management




                         Office of
                       Tariff Affairs              Office of
                        and Trade               Unfair Import
                       Agreements               Investigations



Budget Committee                                                                                       Information Resources Management Steering Committee (IRMSC)
   Authority: Adm. Order 00-06, dated 7/26/00                                                             Authority: Adm. Order 00-08, dated 8/25/00

                                                                                                       Labor-Management Occupational Safety and Health Committee
Directives Review Committee                                                                              Authority: Adm. Order 01-10, dated 5/1/01
    Authority: CO71-U-004, dated 7/11/97

Document Imaging Oversight Committee (DIOC)                                                            Labor-Management Partnership Council
   Authority: Adm. Order 96-06, dated 3/15/96                                                            Authority: Adm. Order 02-05, dated 2/13/02

Executive Resources Board (ERB)                                                                        Strategic Planning Committee (SPC)
   Authority: Adm. Order 00-07, dated 8/22/00                                                             Authority: Adm. Order 02-08, dated 5/3/02

Incentive Awards Committee (IAC)
    Authority: Adm. Order 92-27, dated 7/2/92 and Adm. Order 97-02, dated 10/15/96




                                                                                             6
                                        ig
                            April 2002 SemiAnnual Report




                        COMMISSION PROFILE
                          http://www.usitc.gov
The Commission is an independent, nonpartisan, quasi-judicial federal agency established
by Congress to provide trade expertise to both the legislative and executive branches of
government. Its mission is to: administer U.S. trade remedy laws within its mandate in a
fair and objective manner; provide the President, United States Trade Representative
(USTR) and the Congress with independent, quality analysis, information, and support on
matters of tariffs and international trade and competitiveness; and maintain the
Harmonized Tariff Schedule of the U.S. In so doing, the Commission serves the public by
implementing U.S. law and contributing to the development and implementation of sound
and informed U.S. trade policy. Major Commission activities include:

       j Import Injury Investigations –The Commission makes determinations in a
         variety of import injury investigations, primarily antidumping and
         countervailing duty investigations concerning the effects of unfairly traded
         imports on a U.S. industry.

       j Intellectual Property–Based Investigations–The Commission adjudicates
         complaints brought by domestic industries under section 337 of the Tariff Act
         of 1930 that allege infringement of U.S. intellectual property rights and other
         unfair methods of competition by imported goods.

       j Research–The Commission’s research program consists of its probable
          economic effects investigations under section 131 of the Tariff Act of 1930;
          analysis of trade and competitiveness issues under section 332; and
          independent assessments on a wide range of emerging trade issues.

       j Trade Information Services–The Commission’s trade information services
         include such activities as trade remedy assistance; library services; legislative
         reports; maintenance of the Harmonized Tariff Schedule; Schedule XX; U.S.
         Schedule of Services Commitments under the General Agreement on Tariffs and
         Trade/World Trade Organization; preparation of U.S. submissions to the
         Integrated Database of the World Trade Organization; and certain other
         information gathering, processing, and dissemination activities.

       j Trade Policy Support–The Commission supports the formulation of U.S.
         trade policy, providing objective input to both the Executive Branch and the
         Congress on the basis of the distinctive expertise of its staff.

                                           7
                                          ig
                             April 2002 SemiAnnual Report




COMMISSION PROFILE—Continued
The Commission has six Commissioners, appointed by the President and confirmed by the
Senate, who serve one term of 9 years, unless appointed to fill an unexpired term. No more
than three Commissioners may be of the same political party. The Chairman and Vice
Chairman are designated by the President and serve a 2-year statutory term. The
Chairman is responsible, within statutory limits, for the administrative functions of the
Commission.
During this reporting period, Commissioner Dennis M. Devaney’s appointment ended on
December 20, 2001. Mr. Devaney had been appointed to the Commission by former
President Clinton in January 2001 for the period that expired at the end of the first session
of the 107 th Congress. The current Commissioners are Stephen Koplan, Deanna Tanner
Okun, Lynn M. Bragg, Marcia E. Miller, and Jennifer A. Hillman. The current Chairman
is Stephen Koplan and the current Vice Chairman is Deanna Tanner Okun.
In FY 2002, the Commission had $52.7 million in available funds ($51.44 million
appropriation) and a staffing plan for 395.5 permanent positions and 7.7 term/temporary
positions. All employees are located in one building at 500 E Street, SW, Washington, DC.




                         U.S. International Trade Commission




                                             8
                                                   ig
                                     April 2002 SemiAnnual Report




                THE OFFICE OF INSPECTOR GENERAL
                       http://www.usitc.gov/oig
 The Commission established the OIG pursuant to the 1988 amendments to the Inspector
 General Act. The Inspector General reports directly to the Chairman. The Inspector
 General is responsible for directing and carrying out audits, investigations, and inspections
 relating to Commission programs and operations. The Inspector General also comments
 and provides recommendations on proposed legislation, regulations, and procedures as to
 their economy, efficiency and effectiveness.
 As shown in the organizational chart, the OIG had three full-time positions and one
 part-time position in FY 2002.


                                Office of Inspector General: Organization
    Full-time

              Inspector General




                                                                                                Part-time


      Assistant Inspector
                                     Paralegal Specialist                                 Counsel to the
       General for Audit
                                                                                        Inspector General



 For FY 2002, the OIG was allocated 3.5 staff years. This provided for three full-time
 (Inspector General, Assistant Inspector General for Audit, and Paralegal Specialist) and
 one part-time (Counsel to the Inspector General) positions. During this semiannual period
 two new employees were hired. The Commission also allocated $100,000 for OIG
 contracted audit and review services for FY 2002.




Jean Smith joined the OIG staff on                     Jennifer Hepler joined the OIG staff
October 9, 2002, as Assistant                          on October 9, 2002, as Counsel to the
Inspector General for Audits.                          Inspector General.




                                                       9
                                        ig
                            April 2002 SemiAnnual Report




                                     AUDITS
                              Audit Report List
We issued one audit report during this period:
       j OIG-AR-01-02, Planning Process for the Commission’s Research Program
         (see page 10)
Generally, the Commission made progress in implementing pending actions recommended
in four reports from our last semiannual report:
       j OIG-AR-02-01, Evaluation of the USITC’s Information Security Program (see
         page 13)
       j OIG-AR-05-00, Evaluation of USITC’s Records Management (see page 13)
       j OIG-AR-01-01, Evaluation of the Commission’s Implementation of E-FOIA (see
         page 14)
       j OIG-AR-01-00, Review of the Commission’s Information Resources Manage-
         ment Function (see page 14)


                          Summary of Significant Audits
Planning Process for the Commission’s Research Program, OIG-AR-01-02
(March 29 2002) http://www.usitc.gov/oig/OIG-AR- 01-02.pdf
An OIG evaluation of the planning process for the Research Program revealed that
customers were generally satisfied with the Commission’s research reports, but
improvements were needed to identify and prioritize future projects while ensuring
resources are effectively used.
The Commission provides independent assessments on a wide range of emerging trade
matters. These studies include:
       j Trade-related investigations or reports requested by the President, the
         Congress, the House Committee on Ways and Means, the Senate Committee on
         Finance or either branch of the Congress, under the authority of Section 332 of
         the Tariff Act of 1930.
       j Probable economic effect investigations at the request of the President, under
         the authority of Section 131 of the Trade Act of 1974.

                                          10
                                          ig
                             April 2002 SemiAnnual Report




AUDITS—Continued
The knowledge and skills developed by the Commission’s staff through the Research
Program are used to support the Commission’s other operations and provide immediate
assistance to the Congress and the executive branch on trade issues. This operation
accounts for approximately 36.1 percent of the Commission’s budgetary resources and 38.6
percent of the Commission’s work year.
In 1995, the Commission developed its first strategic plan as called for in the Government
Performance and Results Act of 1993 (Results Act). The Commission’s strategic plan
includes a mission statement, a vision statement and the goals and objectives for all of its
five operations. The Research Program’s goals and objectives section includes strategic
goals, general strategies and critical success indicators that will be used to accomplish its
program goals. However, the OIG audit found that improvements were needed to identify
and prioritize future Research Program projects while ensuring resources are effectively
used. Furthermore, areas the Commission may consider taking action to further satisfy its
customers are the analysis and subject selection process. Customers believed analysis was
not always unique or groundbreaking, and they used other sources of information.
Additionally, customers would like to have the Commission issue reports on other
suggested subjects.
We made three recommendations to strengthen the planning process—
       1. Include an internal and external solicitation of proposed projects for the annual
          plan, a rationale for the proposed project, and identification of resources needed
          for the project. A schedule should be prepared identifying the ongoing projects
          and newly selected projects in priority order.
       2. Add a performance indicator that can be linked to the budget, actual costs and
          management challenges, such as the need to be flexible and respond rapidly to
          conduct unanticipated projects. This performance indicator should supply
          sufficient and reliable data to support program management and budgeting of
          the Research Program.
       3. Direct staff to record their time by project, including customer assistance, and
          ensure that the time and attendance system captures the data necessary for
          planning, accountability, and performance measurement to measure efficiency
          and cost effectiveness.




                                            11
                                         ig
                             April 2002 SemiAnnual Report




AUDITS—Continued
The actions listed in response to the above met the intent of the recommendations.
Although management did not agree to add an indicator in the Research Program’s
Performance Plan, the planned actions to address the third recommendation will allow
management to compare estimated costs approved by the Commission with actual project
costs and a quarterly report on independent research projects. This data will assist in the
support of program management and budgeting.




                                           12
                                       ig
                            April 2002 SemiAnnual Report




                          AUDIT FOLLOW-UP
During this reporting period, the Commission made progress in completing pending actions
on three audits from our last semiannual report. However, pending actions remain open
on recommendations reported in the previous semiannual report for the following three
audits at the end of the reporting period:
Evaluation of the USITC’s Information Security Program, OIG-AR-02-01
(September 10, 2001) http://www.usitc.gov/oig/OIG-AR-02-01.pdf
This audit resulted in 19 recommendations, all of which were agreed to by management.
One recommendation has been implemented. Also, in accordance with GISRA, the
Commission provided a detailed plan of action to the Office of Management and Budget on
October 31, 2001 which addressed our recommendations. Our recommendations for
improving the Commission’s Information Security Program were intended to:

       j Require development and implementation of a comprehensive entity-wide
          information security plan that includes all ITC support systems and major
          applications.
       j Bring ITC into conformance with GISRA, OMB Circular A-130, and other
         applicable information security guidance.
       j Resolve identified weaknesses in the Commission’s information security plans,
         policies, procedures and controls.
Evaluation of USITC’s Records Management, OIG-AR-05-00 (March 7, 2001)
http://www.usitc.gov/oig/OIG-AR-05-00.pdf
This audit resulted in 22 recommendations, all of which were agreed to by management.
As of April 1, 2002, 18 recommendations had been implemented. The Commission has been
working with NARA; however, the remaining four recommendations have not been imple-
mented:
       j Review permanent records to verify classification.
       j Seek NARA approval for a modified SF 115.
       j Seek NARA approval for electronic records storage.
       j Identify records scanned by EDIS so they can be disposed.




                                          13
                                          ig
                             April 2002 SemiAnnual Report




AUDIT FOLLOW-UP— Continued
Evaluation of the Commission’s Implementation of E-FOIA, OIG-AR-01-01
(March 20, 2001) http://www.usitc.gov/oig/OIG-AR-01-01.pdf
This audit resulted in five recommendations, all of which were agreed to by management,
but two have not yet been implemented:
       j Develop a procedure for receiving E-FOIA requests electronically.
       j Amend 19 CFR 201.17-21 to emphasize FOIA affirmative access provisions.
Review of the Commission’s Information Resources Management Function,
OIG-AR-01-00 (September 29, 2000) http://www.usitc.gov/oig/OIG-AR-01-00.pdf
This audit resulted in six recommendations for improving the Commission’s Information
Resources Management (IRM). Management agreed to these recommendations, but four
have not yet been fully implemented. A summary of the recommendations not yet
implemented is as follows:
       j Place existing IRM-related offices under the direction of the CIO.
       j Strengthen the IRM Committee.
       j Improve the management of the Commission’s IRM personnel.
       j Improve information security planning.
The Commission has requested that the Office of Personnel Management (OPM) authorize
a new Senior Executive Service (SES) position, which will be used for the CIO. Once the
SES position is approved, the Chairman believes that filling it will not be a problem. In the
interim, the Chairman appointed an acting CIO. Completion of the first three actions listed
above awaits the OPM response to the Commission’s request. In addition, the Commission
has revised and reissued its directive on information security and issued a new handbook
on information security. However, the Commission has not yet completed revision of its
information security plan.




                                            14
                                        ig
                            April 2002 SemiAnnual Report




                                INSPECTIONS
                            Inspection Report List
During this period one inspection report was issued.

Assessment of the Commission’s Family-Friendly Programs, OIG-IR-06-01
(March 27, 2002) http://www.usitc.gov/oig/OIG-IR-06-01.pdf

The OIG assessed the Commission’s family-friendly programs — those programs promoted
by the Office of Personnel Management’s Office of Family-Friendly Advocacy — in terms
of their compliance with statutory and executive level guidance and whether they meet the
needs of Commission employees. Seventy-seven percent of employees responding to our
survey said that the Commission is “a family-friendly place to work.” Although the
Commission’s success is commendable, employee survey results and our inspection
identified opportunities for the Commission to further enhance family-friendly programs.
The Commission has implemented all programs considered mandatory for federal
employees except Parent and Elder Care Support Groups. The Commission has
implemented all programs considered voluntary except (1) a Voluntary Leave Bank, (2) an
On-Site Childcare Center, (3) Low Income Childcare Tuition, and (4) Student Loan
Repayment.

In light of these findings we suggested that the Commission:

       1. Conduct periodic, comprehensive surveys of its employees to determine their
          needs and preferences for the total spectrum of family-friendly programs listed
          in Table 1 of the inspection report;

       2. Analyze the total benefits of family-friendly programs to both the Commission
          and its employees;

       3. Use the results of these surveys and benefits analyses to determine whether to
          institute new family-friendly programs or curtail or terminate existing
          programs that may not meet the needs of its employees;

       4. Establish a policy for on-site support groups;

       5. Initiate a program for assisting employees in hard-to-retain series with student
          loan repayments in exchange for a commitment to a fixed period of service; and

       6. Consider the need, if any, for a childcare subsidy program.

                                           15
                                             ig
                              April 2002 SemiAnnual Report




                               INVESTIGATIONS
The OIG investigates possible violations of laws, rules, and regulations, mismanagement,
abuse of authority, and waste of funds. These investigations are in response to allegations,
complaints, and information received from employees, other government agencies,
contractors, and other concerned individuals. The objective of this program is to ensure the
integrity of the Commission and assure individuals fair, impartial, and independent
investigations.


                           Summary of Investigative Activity
A summary of investigative activity is presented below.
During this reporting period, four cases were initiated and two remain open. These cases
involved alleged conflict of interest, a computer hacking, inappropriate use of Government
travel cards, and alleged privacy act violations.



      Case Workload                  Referrals Processed         Investigative Results
 Open (10/01/01)       1       Received             4          Referrals for
                                                               Prosecution               0
 Initiated             4       Referred to
                               Commission           0          Referrals Declined
 Closed                3                                       for Prosecution           1
                               Referred to other
 Open (3/31/02)        2       Federal Agencies     1          Administrative
                                                               Action                    1
                               Evaluated but No
                               Investigation
                               Initiated            0




Conflict of Interest
The Department of Justice declined to prosecute a former employee for possible conflict of
interest while previously employed by the Commission. Because the employee left the
Commission and was no longer in federal service, the Chairman sent the employee a
private letter of reprimand.




                                              16
                                          ig
                             April 2002 SemiAnnual Report




Inappropriate Use of Government Travel Card
An agency employee used the Citicorp Government Travel Card issued to the employee to
charge $2,349.14 for travel, merchandise, gas, entertainment tickets, etc. All of the charges
were for personal use, as the employee had not traveled on official government business.
The travel card was canceled for nonpayment. After meeting with the Chairman and
Inspector General, the employee paid the balance. Because the employee left the
Commission and was no longer in federal service, the Chairman sent the employee a
private letter of reprimand.


Computer Hacking
An external server was hacked and an electronic referral was sent to the Internet Fraud
Complaint Center at the Federal Bureau of Investigations.




                                            17
                                        ig
                            April 2002 SemiAnnual Report




                           OTHER ACTIVITIES

Regulatory Review
The Inspector General Act, 5 U.S.C. Appendix, Section 4(a)(2), requires the OIG to review
existing and proposed legislation and regulations and to make recommendations
concerning the impact of such legislation or regulations on the economy and efficiency of
programs and operations administered by the Commission.
The OIG evaluates the impact that new or revised procedures will have on the economy and
efficiency of programs and operations. The OIG reviewed and commented on draft internal
directives on mission and functions statements for the Office of Operations, Admini-
stration, Facilities Management, and Finance, and the records management program. The
OIG reviewed and commented on a Notice of Proposed Rulemaking and Notice Seeking
Public Comment on the Electronic Filing Procedures Handbook, a Notice of Interim
Rulemaking concerning China safeguard investigations, and a Notice announcing
availability of public information.


Management Assistance


                     Government Information Security Reform Act
The OIG provided the Chairman with a memorandum in response to his request for an
analysis of the agency head’s obligations under the Government Information Security
Reform Act (“GISRA,” P.L. 106-398, Title X, October 30, 2000) and Office of Management
and Budget guidance for implementing GISRA. In response to the memorandum, the
Chairman appointed an acting Chief Information Officer (CIO) to oversee agency
compliance with GISRA. The OIG participates in weekly meetings with the acting CIO and
an Office of Information Systems representative to monitor accomplishments of the
strategy and action plan required by GISRA.




                                          18
                                        ig
                            April 2002 SemiAnnual Report




OTHER ACTIVITIES—Continued


            Electronic Document Information System Replacement (EDIS-II)
In early January, the Assistant Inspector General for Audit met with the Secretary of the
Commission to discuss the development of performance measures for an automated
system – Electronic Document Information System Replacement (EDIS-II). The Assistant
Inspector General provided the Secretary with guidance on creating performance
measures, and pointed out key areas that should be considered to benefit the Commission.
For example, data collection and analysis capabilities that provide performance data must
be assessable, reliable, and collected in the least burdensome manner. Additionally, the
ability to make adjustments must be present to recognize unusual activity due to the needs
of a particular case.


                                   Research Planning
In February, the Inspector General briefed the Director of Operations on a strategy and
methodology to facilitate planning research projects on an annual basis.


General Accounting Office (GAO)
The Inspector General Act states that each Inspector General shall give particular regard
to the activities of the Comptroller General of the United States with a view toward
avoiding duplication and ensuring effective coordination and cooperation.
During this period, the GAO issued three reports related to international trade:
       j Defense Trade: Lessons to Be Learned from the Country Export Exemption.
         GAO-02-63 March 29, 2002.
       j International Trade: Significant Challenges Remain in Deterring Trade in
         Conflict Diamonds. GAO-02-425T February 13, 2002.
       j North American Free Trade Agreement: Coordinated Operational Plan Needed
         to Ensure Mexican Trucks’ Compliance With U.S. Standards. GAO-02-238
         December 21, 2001.
These reports included no recommendations for the Commission.




                                           19
                                         ig
                             April 2002 SemiAnnual Report




OTHER ACTIVITIES—Continued


Liaison Activities
The Inspector General is a member of the Executive Council on Integrity and Efficiency
(ECIE), which consists primarily of the Inspectors General at the 34 designated federal
entities. The ECIE was established by Executive Order on May 11, 1992 and consists of
Designated Federal Entity Inspectors General and representatives of the Office of
Government Ethics, the Office of Special Counsel, the Federal Bureau of Investigation and
the Office of Management and Budget.
The Inspector General also participates in activities sponsored by the President’s Council
on Integrity and Efficiency (PCIE), which consists primarily of the Presidentially–
appointed Inspectors General. The ECIE and PCIE have identical functions and
responsibilities to promote integrity and efficiency and to detect and prevent fraud, waste,
and abuse in federal programs.
The Inspector General became a member of the PCIE ECIE Human Resources Committee
and identified opportunities for the community to cooperate and coordinate its training
plans. He became a Certified Myers Briggs Type Instrument R (MBTI) Professional and
facilitated a team building workshop using the MBTI for multiple Offices of Inspector
General at Ft. Belvoir, Virginia.
The Counsel to the Inspector General is a member of the Inter-agency Ethics Council; she
also provided a monthly report to the Council on Federal Court cases involving ethics
issues. In addition, the OIG responded to a Department of Justice request regarding
subpoena authority. Questions about the OIG’s subpoena scope of authority, enforcement
mechanisms, notifications, privacy protections, issuance standards, qualifiers, procedures,
law enforcement needs, benefits, authorities, frequency of use, recommendations and
suggested improvements were answered in a table format.


Legislative Liaison Activities
On October 19, 2001, we responded to a request by Senator Charles Grassley (R- Iowa) for
information on our prior audits of government travel card and purchase card abuse. We also
began an audit of travel card controls.




                                            20
                                          ig
                            April 2002 SemiAnnual Report




              REPORTING REQUIREMENTS INDEX
The Inspector General Act of 1978, as amended (1988), specifies reporting requirements
for semiannual reports.
CITATION            REPORTING REQUIREMENTS                                             PAGE

Section 4(a)(2)     Recommendations concerning the impact of such legislation or       18-20
                    regulations on the economy and efficiency in the administration
                    of programs and operations administered or financed by the
                    Commission

Section 5(a)(1)     Description of significant problems, abuses, and deficiencies      None
                    relating to the administration of programs and operations

Section 5(a)(2)     Description of the recommendations for corrective action made      None
                    with respect to significant problems, abuses, or deficiencies

Section 5(a)(3)     Identification of each significant recommendation described in     13-14
                    previous semiannual reports on which corrective action has not
                    been completed

Section 5(a)(4)     Summary of matters referred to prosecutive authorities and the       16
                    prosecutions and convictions which have resulted

Section 5(a)(5)     Summary of each report made to the head of the establishment       None
                    under which information or assistance was unreasonably refused

Section 5(a)(6)     Listing of each audit report                                         10

Section 5(a)(7)     Summary of each significant report                                 10-12

Section 5(a)(8)     Statistical tables showing Audit Reports–Questioned Costs            22

Section 5(a)(9)     Statistical tables showing Audit Reports–Funds Put to Better Use     23

Section 5(a)(10)    Summary of each audit report issued before the commencement of
                    the reporting period for which no management decision has been
                    made by the end of the reporting period                            None

Section 5(a)(11)    Description and explanation of the reasons for any significant
                    revised management decisions                                       None

Section 5(a)(12)    Information concerning any significant management decision
                    with which the Inspector General is in disagreement                None




                                             21
                                             ig
                                April 2002 SemiAnnual Report




                    Table 1
     AUDIT REPORTS WITH QUESTIONED COSTS
                                                                           Dollar Value

                                              Number of        Questioned          Unsupported
                                                Reports            Costs                Costs

A.   For which no management decision has
     been made by the commencement of the period     0                 0                    0

B.   Which were issued during the reporting period   0                 0                    0

     Subtotals (A+B)                                 0                 0                    0

C.   For which a management decision was made
     during the reporting period                     0                 0                    0

     (i)     Dollar value of
             disallowed costs                        0                 0                    0

     (ii)    Dollar value of costs
             not disallowed                          0                 0                    0

D.   For which no management decision has been
     made by the end of the reporting period         0                 0                    0

E.   Reports for which no management decision was
     made within six months of issuance              0                 0                    0




                                                22
                                                     ig
                                      April 2002 SemiAnnual Report




                         Table 2
         AUDIT REPORTS WITH RECOMMENDATIONS
            THAT FUNDS BE PUT TO BETTER USE
                                                                                Number of                 Dollar
                                                                                  Reports                  Value

A.          For which no management decision has been made by
            the commencement of the period                                               0                     0

B.          Which were issued during the reporting period                                0                     0

            Subtotals (A+B)                                                              0                     0

C.          For which a management decision was made during the reporting period         0                     0

            (i)      Dollar value of recommendations that were
                     agreed to by management                                             1           1$21,380.50



            (ii)     Dollar value of recommendations that were
                     not agreed to by management                                         0                     0

D.          For which no management decision has been made by the end of the
            reporting period                                                             0                     0

E.          Reports for which no management decision was made within six
            months of issuance                                                           0                     0




     1   Management agreed to take this action on the basis of our Inspection Report on Family-Friendly Programs.


                                                        23
                                         ig
                            April 2002 SemiAnnual Report




                                    GLOSSARY
The following definitions apply to the terms used in this report.
Questioned Cost             means a cost that is questioned by the Office because of:
                            (1) an alleged violation of a provision of a law, regulation,
                            contract, grant, cooperative agreement, or other agreement or
                            document governing the expenditure of funds; (2) a finding
                            that, at the time of the audit, such cost is not supported by
                            adequate documentation; or (3) a finding that the expenditure
                            of funds for the intended purpose is unnecessary or
                            unreasonable.

Unsupported Cost            means a cost that is questioned by the Office because the
                            Office found that, at the time of the audit, such cost is not
                            supported by adequate documentation.

Disallowed Cost             means a questioned cost that management, in a management
                            decision, has sustained or agreed should not be charged to the
                            Government.

Recommendation that         means a recommendation by the Office that funds could be
funds be put to better      used more efficiently if management of an establishment
use                         took actions to implement and complete the recommendation,
                            including:
                            (1) reduction in outlays; (2) deobligation of funds from
                            programs or operations; (3) withdrawal of interest subsidy
                            costs on loans or loan guarantees, insurance, or bonds; (4)
                            costs not incurred by implementing recommended
                            improvements related to the operations of the establishment,
                            a contractor or grantee; (5) avoidance of unnecessary
                            expenditures noted in preaward reviews of contract or grant
                            agreements; or (6) any other savings which are specifically
                            identified.




                                           24
                      ig
           April 2002 SemiAnnual Report




    Special thanks to the Office of Publishing
        for the production of this report:

     Keven Blake: Cover design and photography

Pamela Dyson: Report design and composition services

      Printing Operations: Reproduction service




                        25
  If you suspect Fraud, Waste, Abuse, or other misconduct at the
       International Trade Commission, please contact us at:

                      IGHotline@usitc.gov
                               or
                  EthicsLine 1--800--500--0333
                               or
              http://www.usitc.gov/oig/oighot.htm

The EthicsLine is available 24 hours per day. The caller can remain
  anonymous. If you prefer, you may send written complaints to:

             U.S. International Trade Commission
                   Office of Inspector General
                             Room 515
                        500 E Street, S.W.
                     Washington, DC 20436

Federal employees are protected from reprisal under the provisions
of the Whistleblower Protection Act of 1989. For more information,
 see the MSPB publication entitled “Questions and Answers About
  Whistleblower Appeals”, which is available in the Main Library,
               the Office of Personnel, and the OIG.
